No. 20–6772

IN THE
SUPREME COURT OF THE UNITED STATES

CHRISTOPHER SPREITZ,
PETITIONER,
-vsDAVID SHINN,
RESPONDENT.

CERTIFICATE OF COMPLIANCE
CAPITAL CASE
BRIEF IN OPPOSITION
MARK BRNOVICH
ATTORNEY GENERAL
BRUNN (“BEAU”) W. ROYSDEN III

SOLICITOR GENERAL

LACEY STOVER GARD
DEPUTY SOLICITOR GENERAL/CHIEF OF
CAPITAL LITIGATION

(COUNSEL OF RECORD)
CAPITAL LITIGATION SECTION
400 WEST CONGRESS, S-215
TUCSON, ARIZONA 85701
LACEY.GARD@AZAG.GOV

CLDOCKET@AZAG.GOV
TELEPHONE: (520) 628-6520
ATTORNEYS FOR RESPONDENT

CERTIFICATE OF COMPLIANCE
Undersigned counsel certifies that this Brief in Opposition is double spaced,
uses a 12 point proportionately-spaced Century typeface, and contains 4,047 words.
DATED this 4th day of February, 2021.
/s/ Lacey Stover Gard
Lacey Stover Gard
Deputy Solicitor General/Chief of
Capital Litigation
Capital Litigation Section

REXYGRN30F1D65

2

